OFFICE OF AUDIT
REGION 9
LOS ANGELES, CA




                  The City of Inglewood, CA

        HOME Investment Partnerships Program




2013-LA-1001                                  DECEMBER 6, 2012
                                                        Issue Date: December 6, 2012

                                                        Audit Report Number: 2013-LA-1001




TO:            William Vasquez, Director, Los Angeles HUD Office of Community Planning
               and Development, 9DD



FROM:          Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region,
               9DGA


SUBJECT:       The City of Inglewood, CA, Did Not Administer HOME Investment Partnerships
               Program Funds in Accordance With HUD Rules and Requirements

       Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the City of Inglewood’s HOME
Investment Partnerships Program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
213-534-2471.
                                           December 6, 2012
                                           The City of Inglewood, CA, Did Not Administer HOME
                                           Investment Partnerships Program Funds in Accordance
                                           With HUD Rules and Requirements



Highlights
Audit Report 2013-LA-1001


 What We Audited and Why                    What We Found

We reviewed the City of Inglewood’s        The City did not commit or disburse its HOME funds
HOME Investment Partnerships               in accordance with HUD rules and requirements. This
Program. We initiated the review           condition occurred because the city council failed to
because of the U.S. Department of          approve the City’s policies and procedures that were
Housing and Urban Development’s            needed to ensure that it committed and expended
(HUD) Los Angeles Office of                HOME funds before HUD’s required deadlines, which
Community Planning and                     resulted in its incurring more than $2.6 million in
Development’s expressed concerns           unused HOME funds that should have been used to
about the City’s administration of its     further affordable housing activities.
program funds. Our objective was to
determine whether the City complied
with HOME rules and requirements for
obligations, commitments,
expenditures, program income,
monitoring, and reporting.

 What We Recommend

We recommend that the Director of
HUD’s Los Angeles Office of
Community Planning and Development
recapture more than $2.6 million in
uncommitted and unexpended HOME
funds. We also recommend that the
Director require the City (1) to develop
better planning processes to commit and
expend program income and funds and
(2) establish and implement sufficient
internal control policies and procedures
to ensure compliance with program
rules and requirements. Otherwise,
consider revoking the City’s status as a
participating jurisdiction for HOME
funds.
                            TABLE OF CONTENTS

Background and Objective                                                       3

Results of Audit
      Finding: The City Did Not Administer Its HOME Funds in Accordance With
      Applicable HUD Rules and Requirements                                    4

Scope and Methodology                                                          9

Internal Controls                                                              11

Appendixes
A.    Schedule of Funds To Be Put to Better Use                                13
B.    Auditee Comments and OIG’s Evaluation                                    14
C.    Criteria                                                                 22




                                            2
                      BACKGROUND AND OBJECTIVE

The City of Inglewood’s HOME Investment Partnerships Program is funded through the U.S.
Department of Housing and Urban Development’s (HUD) Community Development Block
Grant (CDBG) Division, which is dedicated to implementing programs that meet community
development and housing needs. Using a formula-based method, HUD allocates HOME funds
to eligible State and local governments to strengthen public-private partnerships to provide more
affordable housing. Fifteen percent of these funds must be allocated to designated community
housing development organizations. The City uses the remaining 85 percent of the program
funds to expand the supply of decent, safe, sanitary, and affordable housing for very low- to
moderate-income persons.

From fiscal years 2009 to 2011, HUD allocated more than $3 million in HOME funds to the
City. However, the City had expended only $246,156, or 8 percent, of those funds on HOME-
eligible projects. From fiscal year 2009 to 2011, the City’s HOME-funded activities generated
$1,943,705 in program income. HUD requires the City to expend earned program income before
using funds on HOME-eligible projects. The City’s accumulation, as well as slow expenditure
of program income attributed to delays in committing and expending program funds on HOME-
eligible projects.

The City attempted to accomplish the objective of providing decent, safe, sanitary, and
affordable housing through the implementation of housing programs and projects that provided
housing assistance in the form of grants and deferred loans to eligible participants.

HUD allows recipients to use HOME funds for the following activities:

   •   Program administration,
   •   New housing construction,
   •   Housing rehabilitation,
   •   Home mortgage and purchase assistance, and
   •   Short-term rental assistance.

As a recipient, the City used HOME funds for the following activities:

   •   Housing rehabilitation and home improvement programs,
   •   A tenant-based rental assistance program,
   •   Community housing development organizations, and
   •   A first-time home buyer program.

The objective of this review was to determine whether the City complied with HOME rules and
requirements for obligations, commitments, expenditures, program income, monitoring, and
reporting.




                                                3
                               RESULTS OF AUDIT


Finding: The City Did Not Administer Its HOME Funds in Accordance
With Applicable HUD Rules and Requirements
The City did not commit and expend HOME funds in accordance with HUD rules and
requirements. This condition occurred because the city council failed to approve the necessary
policies and procedures to commit and expend program funds before HUD’s required deadlines.
As a result, the City had more than $2.6 million in unused HOME funds that should have been
used to further the City’s affordable housing activities.


 The City Did Not Commit
 HOME Funds in Accordance
 With HUD Requirements

              The City did not commit program funds before HUD’s 24-month required
              deadline. HUD regulations at 24 CFR (Code of Federal Regulations)
              92.500(d)(1)(B) required the City to commit program funds to designated eligible
              activities within 24 months of the agreement date (see appendix C). The City
              received HOME funds in fiscal years 2008 and 2009 and was required to commit
              100 percent of those funds by the end of the respective 24-month period. See the
              table below for the results of our review of committed funds.

Fiscal   Total funds     Agreement     Deadline Total funds        Percentage     Remaining
 year    authorized         date      date when committed           of funds       funds not
                                        funds                      committed     committed as
                                       must be                                      of 8/7/12
                                         100
                                       percent
                                      committed
2008       $473,901       10/22/08     10/21/10  $228,045          48 percent       $245,856
2009      $1,266,948      10/28/09     10/27/11      $126,695      10 percent      $1,140,253
Total     $1,740,849                                 $354,740                      $1,386,109

              As shown above, the City did not commit more than $1.3 million in program
              funds before HUD’s 24-month required deadline. Discussions with the City’s
              CDBG department determined that the City had a few projects to which it had
              committed HOME funds that were in progress. However, the City stated that
              there were not enough projects in development to cover the amount of HOME
              funds authorized through the fiscal years in question and meet its required
              deadlines.



                                              4
The City Did Not Expend
HOME Funds in Accordance
With HUD Requirements

            The City did not expend program funds before HUD’s 5-year deadline. HUD
            regulations at 24 CFR 92.500(d)(1)(C) required the City to expend program funds
            on eligible program activities within 5 years of the agreement date (see appendix
            C). The City received HOME funds in fiscal years 2005, 2006, and 2007 and was
            required to expend 100 percent of those funds by 2010, 2011, and 2012,
            respectively. See the table below for the results of our review of expended funds.

 Fiscal     Total    Agreement Deadline date             Amount Percentage Amount
  year      funds       date   when funds must          expended of funds    not
          authorized            be 100 percent                   expended expended
                                  expended
 2005     $1,256,967   9/22/05      9/21/10             $1,068,422       85%       $188,545
 2006     $1,184,626 11/21/06      11/20/11             $1,145,914       97%        $38,712
 2007     $1,178,116   10/3/07      10/2/12              $169,789        14%      $1,008,327
 Total    $3,619,709                                    $2,384,125                $1,235,584

            As shown above, the City did not expend more than $1.2 million in program
            funds before HUD’s 5-year required deadline, and it did not appear that it would
            be able to expend its HOME funds by the designated deadline. For example, the
            City’s CDBG department stated that it planned to commit $2.5 million of these
            program funds to its housing rehabilitation program for single-family homes in
            fiscal years 2011 and 2012. The rehabilitation work was to commence once the
            city council had reviewed and approved the formal policies and procedures for the
            program in July 2012. The city council had to approve these policies and
            procedures before the City could start the program. However, there was no
            documentation showing that the city council had approved these policies and
            procedures. As a result, the City could not start the rehabilitation program, further
            delaying its ability to expend program funds before HUD’s required deadline.

The City’s Slow Expending of
Program Income Contributed
to It Not Meeting Commitment
and Expenditure Requirements

            During fiscal years 2007 to 2011, the City accumulated more than $2.6 million in
            program income earned from HOME activities. These earned program funds
            were in addition to its program funding received from HUD. HUD requires
            recipients of HOME funds to use earned program income before expending
            program funds. Therefore, the City’s slow expending of earned program income



                                              5
           contributed to its inability to commit and expend program funds before HUD’s
           required deadline.

The City’s Inability To Commit
and Expend HOME Funds Had
Been a Continuing Issue

           The City’s inability to commit and expend HOME funds in accordance with HUD
           rules and requirements had been a continuing issue. In fiscal year 2008, HUD’s
           Los Angeles Office of Community Planning and Development conducted an
           onsite monitoring of the City to ensure that it complied with applicable HUD-
           specific HOME requirements, regulations, and statutes and to evaluate the City’s
           organizational and project performance. It issued a report expressing concerns
           about the progress of the City’s program. Based on the results of the report, the
           City was given verbal and written warnings regarding its deadlines for
           committing and disbursing HOME funds. The Los Angeles Office of Community
           Planning Development determined that the City’s slow-moving projects were the
           reason for timeliness issues in the area of disbursements. It also stated that the
           City had not entered older project activities into HUD’s Integrated Disbursement
           and Information System within the required 120 days to indicate final project
           drawdowns and completions.

           In 2010, these issues were further emphasized in a report documenting the HOME
           technical assistance that the City received to improve its program. HUD’s Los
           Angeles Office of Community Planning Development hired technical assistance
           consultants to provide assistance to the City in correcting issues related to its
           program. During the technical assistance, the consultants found that the City
           reported open project activities in the Integrated Disbursement and Information
           System. The consultants recommended canceling activities with no draws that
           had been committed for a year. Additionally, the City continued to exhibit
           problems with committing and expending HOME funds in accordance with HUD
           rules and requirements. The technical assistance consultants determined that the
           City needed to address outstanding project activity commitments and reprogram
           HOME funds to other activities, which could have provided more effective
           results.

           Both the technical assistance and monitoring were instances in which the City had
           been advised of its continued practice of not committing and expending HOME
           funds before HUD’s required deadlines. The City’s continued inability to follow
           HUD’s rules and requirements underscores the need for HUD to consider
           revoking the City’s status as a participating jurisdiction in keeping with HUD
           regulations at 24 CFR 92.107.




                                            6
The City’s Grant Management
Administrative Policy Was Not
Sufficient To Ensure That
HOME Program Funds Were
Committed and Expended

             The City’s grant management administrative policy was not sufficient to ensure
             that HOME funds were committed and expended according to HUD’s rules and
             requirements. The City must comply with these rules and requirements when
             committing and expending HOME funds. HUD’s deadline requirements stated
             that the City had 24 months to commit HOME funds once the funds were granted
             to the City. Further, the City had 5 years to expend those HOME funds. Such
             requirements were not defined in the City’s grant policies and procedures. The
             absence of these requirements resulted in the City’s poor planning in committing
             and expending program funds before HUD’s required deadlines. In addition, the
             absence of written policies and procedures to guide the City in committing and
             expending HOME funds caused delays in payments for current projects, as well
             as hindering the initiation of future projects.

Conclusion

             The City did not administer its HOME funds in accordance with applicable HUD
             rules and requirements. We attributed this deficiency to the city council’s failure
             to approve the City’s policies and procedures needed to commit or expend HOME
             funds according to HUD’s rules and requirements. Also, the City lacked
             sufficient grant policies and procedures to ensure that HOME funds were
             committed and expended in accordance with HUD’s required deadlines. This
             deficiency resulted in the City’s incurring more than $2.6 million in HOME funds
             ($1.3 million uncommitted and $1.2 million unexpended) that went unused and
             should have been used to further the City’s affordable housing activities.

Recommendations

             We recommend that the Director of HUD’s Los Angeles Office of Community
             Planning and Development:

             1A.    Recapture the $2,621,693 in uncommitted and unexpended HOME funds
                    and return these funds to the HOME Investment Trust Fund United States
                    Treasury account. Once in the HOME Investment Trust Fund United
                    States Treasury account, HUD could allocate these funds to other eligible
                    grantees for use towards eligible HOME activities, thereby putting these
                    funds to better use.




                                              7
We recommend that the Director of HUD’s Los Angeles Office of Community
Planning and Development require the City to:

1B.    Develop better planning processes to ensure that it can commit and expend
       its program income and program funds toward eligible activities before the
       required deadlines.

1C.    Establish and implement sufficient internal control policies and procedures
       to ensure that HOME funds are committed and expended in accordance
       with HUD rules and requirements.

If the City fails to successfully implement recommendations 1B and 1C, we
recommend that the Director of HUD’s Los Angeles Office of Community
Planning and Development:

1D.    Consider revoking the City’s status as a participating jurisdiction for
       HOME funds pursuant to 24 CFR 92.107.




                                 8
                         SCOPE AND METHODOLOGY

We performed our onsite audit work at the City’s main office in Inglewood, CA, from May 3 to
September 25, 2012. Our review generally covered the period October 1, 2009, to April 30,
2012, and was expanded to other periods as necessary.

To accomplish the review objective, we:

   •   Conducted interviews with pertinent City personnel involved with the administration of
       HOME funds and HUD Office of Community Planning and Development program staff;

   •   Reviewed Integrated Disbursement and Information System PR performance reports
       provided by HUD;

   •   Reviewed supporting documentation for payments made on voucher and activity
       expenditures;

   •   Reviewed City monitoring reports, HOME funding agreements, consolidated action
       plans, and consolidated annual performance and evaluation reports;

   •   Reviewed the City’s grant management administrative policies and procedures;

   •   Reviewed the City’s internal control policies and procedures, as well as accounting
       records;

   •   Reviewed community housing development organization policies and procedures;

   •   Reviewed program income attributable to HOME funds;

   •   Reviewed documentation related to the City’s HOME-funded projects;

   •   Reviewed the City’s organizational charts;

   •   Reviewed the City’s audited financial statements for fiscal years 2009 and 2010; and

   •   Reviewed applicable CFR references and Office of Management and Budget
       requirements and regulations.

We selected and tested a nonstatistical, representative sample of program vouchers for
completeness and eligibility. We based our universe and sample on documentation provided by
HUD. As a result, we did not assess the data reliability of the City’s computer-processed data in
determining our universe or sample. Our methodology for sample testing included choosing
vouchers with the largest total amount for each fiscal year in our audit period, October 1, 2009,
to April 30, 2012. We chose and tested four vouchers from a sample universe of 36 program


                                                9
vouchers totaling more than $10.6 million from fiscal years 2009 to 2011 from an Integrated
Disbursement and Information System report provided by HUD’s Los Angeles Office of
Community Planning and Development. Due to the small universe, we sampled just under $5.2
million, or 49 percent ($5,196,290/$10,600,975), of the total universe of funds used for HOME
activities.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               10
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                  •   Effectiveness and efficiency of program operations - Implementation of
                      policies and procedures to provide reasonable assurance that HOME funds
                      were committed and expended in accordance with applicable HUD rules
                      and requirements;

                  •   Reliability of financial information - Implementation of policies and
                      procedures to reasonably ensure that relevant and reliable financial
                      information was obtained to adequately support program expenditures;
                      and

                  •   Compliance with applicable laws and regulations - Implementation of
                      policies and procedures to ensure that program activities were in
                      accordance with applicable HUD rules and requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.



                                                 11
Significant Deficiency

            Based on our review, we believe that the following item is a significant deficiency:

            •   The City lacked sufficient grant management administrative policies,
                procedures, and planning processes to ensure that HOME funds were
                committed and expended in accordance with HUD rules and requirements
                (finding).




                                             12
                                APPENDIXES

Appendix A

    SCHEDULE OF FUNDS TO BE PUT TO BETTER USE

                        Recommendation        Funds to be put
                            number            to better use 1/

                               1A               $2,621,693


    1/   Recommendations that funds be put to better use are estimates of amounts that
         could be used more efficiently if an Office of Inspector General (OIG)
         recommendation is implemented. These amounts include reductions in outlays,
         deobligation of funds, withdrawal of interest, costs not incurred by implementing
         recommended improvements, avoidance of unnecessary expenditures noted in
         preaward reviews, and any other savings that are specifically identified. In this
         instance, the funds to be put to better use totaled $2,621,693 in HOME funds
         ($1,386,109 uncommitted and $1,235,584 unexpended) that should have been
         used to further the City’s affordable housing activities.




                                         13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1



Comment 2




Comment 3




Comment 4




                         14
Comment 5



Comment 6




Comment 7



Comment 8




            15
16
Comment 9




Comment 10




             17
Comment 11




             18
                         OIG Evaluation of Auditee Comments

Comment 1   We thank the City for the opportunity to discuss the report and address questions
            and concerns related to our report.

Comment 2   We acknowledge the fact that the current city manager for Inglewood has only
            been on board since July 2011. We recognize that the political and administrative
            situation that occurred in the City of Inglewood during our audit period
            contributed to the findings stated in the report. Nevertheless, under the direction
            of the city manager and the city council, the City of Inglewood is still accountable
            for the actions and subsequent outcomes related to ensuring HOME program
            funds are committed and expended in accordance with HUD rules and
            regulations.

Comment 3   During our review, the City informed us of the circumstances related to the
            proposed construction and funding of the senior citizen resident housing and
            senior center facility. We considered the circumstances as a factor in the City’s
            situation related to its inability to commit and expend HOME funds before HUD’s
            required deadline.

Comment 4   As indicated during the course of the review and expressed during the exit
            conference, we understood and acknowledged the various issues that hampered
            the City’s ability to meet HUD requirements, as well as completion of the
            HOME-funded construction projects. Among the issues included, but not limited
            to, high administrative staffing turnover, political factors, and ill-advised
            decisions made by the city council. However, the city manager and city council
            are responsible for ensuring that actions such as the approval of policies and
            procedures are executed. Such actions are necessary for the City staff to perform
            their duties that include ensuring HOME funds are committed and expended
            before HUD’s required deadlines. In addition, both the city manager and city
            council are accountable for the outcomes that affect the City’s ability to comply
            with HUD requirements.

Comment 5   As stated in Comment 3 above, we acknowledged the circumstances related to the
            construction and funding of the senior housing development. We acknowledged
            the City’s initiative to commit and expend $4 million in HOME funding towards
            its construction of Regent Square Apartments with an anticipated completion in
            the Spring 2013. However, our review identified at least $3.5 million of program
            income that the City had to expend on the new construction project before using
            any HOME funds. Further, our review showed that the City did not commit or
            expend its allocated HOME funds during the period of October 1, 2009 through
            April 30, 2012, resulting in the City missing HUD’s required deadlines.




                                             19
Comment 6     We acknowledged the City’s effort towards establishing a stable political
              environment that included new staffing charged with the administration and
              management of its HOME program. We commend the City in hiring a new
              Assistant City Manager/Chief Financial Officer (CFO) with experience in dealing
              with HUD and OIG matters and assisting the City in complying with HUD
              requirements.

Comment 7     We acknowledge the City’s proactive stance in addressing the issues identified in
              the report. Further, the City’s coordination with HUD to resolve these issues will
              ensure it commits and expends HOME funds in accordance with HUD
              requirements.

Comment 8     We thank the City for the opportunity to discuss the report and address questions
              related to our report.

Responses to Exhibit A (Auditee Comments)

The City incorrectly titled “OIG’s Recommendations” as “OIG Comments”. For consistency
purposes, the City’s comments are to OIG’s recommendations 1A to 1D. Based on discussions
with HUD and the City regarding the corrective actions taken to ensure compliance with HUD
requirements, we revised recommendations 1B to 1D.

Comment 9     We disagree with the City’s comment that Recommendation 1A be eliminated
              from the draft audit report. We commend the City for its progress in committing
              and expending HOME funds to designated new HOME developments totaling
              more than $2 million. However, these projects and pending HOME funds did not
              occur during the course of our review. Our report covered the City’s HOME
              program funding for the period of October 1, 2009 through April 30, 2012.
              During this period, as stated in our report, the City did not commit and expend
              more than $2,6 million in HOME funds before HUD’s required deadline. As a
              result, we believe that Recommendation 1A should remain in the report as a
              means for HUD CPD to consider in corrective actions against the City. HUD can
              further evaluate the recommendation during the audit resolution and determine
              whether that is the most appropriate course of action.

Comment 10 The City requested to remain as a participating jurisdiction for its HOME
           Investment Partnership program and not have its status revoked as stated in
           Recommendation 1B. This recommendation to revoke the City’s status as a
           participating jurisdiction was based on the concerns expressed by HUD CPD,
           numerous CPD training attempts, and continued HUD-approved technical
           assistance provided to the City as ways to address issues related to the
           administration of its HOME program. Given the numerous opportunities that
           HUD provided the City still could not commit or expend HOME funds before
           HUD’s required deadlines. As stated previously, we acknowledge the City’s
           proactive stance in taking appropriate corrective actions towards ensuring that the
           HOME program is in compliance with HUD requirements. We have taken the



                                              20
              City’s steps to correct and improve its administration into consideration and
              advise HUD CPD to consider whether to revoke the City’s status as a
              participating jurisdiction if the City continues to be in noncompliance with
              HOME requirements. HUD can further evaluate the situation during the audit
              resolution process and determine whether this is an appropriate course of action.

Comment 11 We commend the City’s efforts to commit and expend all of its program income.
           As of November 13, 2012, the City stated that it had committed and expended all
           program income, thereby allowing it to spend HOME funds accordingly. We
           acknowledge the City’s plan to initiate appropriate policies and procedures that
           will ensure it allocates program income “upon immediate receipt…towards
           current HOME Program activities and expending program income funds first,
           immediately after receipt of such funds.” We acknowledge the City’s plan for
           the immediate use of program income, thereby ensuring HOME funds can be
           committed and expended towards eligible activities before the required
           deadlines.




                                              21
Appendix C

                                         CRITERA

The following sections of HUD rules and requirements were relevant to our audit of the City’s
administration of HOME funds.

24 CFR Part 92, HOME Investment Partnerships Program – Final Rule

In general, HUD allocates HOME funds through a formula-based method among eligible State
and local governments to strengthen public-private partnerships and expand the supply of decent,
safe, sanitary, and affordable housing with primary attention to rental housing for very low-
income and low-income families. State and local governments that become participating
jurisdictions may use HOME funds to carry out multiyear housing strategies through acquisition,
rehabilitation, and new construction of housing and tenant-based rental assistance. We have
documented the following sections of 24 CFR Part 92 that related to our audit.

24 CFR 92.107, Revocation of Designation as a Participating Jurisdiction, states:

       HUD may revoke a jurisdiction’s designation as a participating jurisdiction if:
       a. HUD finds, after reasonable notice and opportunity for hearing as provided in Section
          92.552
       b. The jurisdiction is unwilling or unable to carry out the provisions of this part,
          including failure to meet matching contributions requirements; or
       c. When HUD revokes a participating jurisdiction’s designation as a participating
          jurisdiction, HUD will reallocate any remaining funds in the jurisdiction’s HOME
          Investment Trust Fund established under Section 92.500 in accordance with Section
          92.451.

24 CFR 92.500(d)(1)(B), The HOME Investment Trust Funds, states:

       HUD will reduce or recapture HOME funds in the HOME Investment Trust Fund by the
       amount of: Any funds in the United Sates Treasury account that are not committed within
       24 months after the last day of the month in which HUD notifies the participating
       jurisdiction of HUD’s execution of the HOME Investment Partnership Agreement.

24 CFR 92.500(d)(1)(C), The HOME Investment Trust Funds, states:

       HUD will reduce or recapture HOME funds in the HOME Investment Trust Fund by the
       amount of: Any funds in the United States Treasury account that are not expended within
       five years after the last day of the month in which HUD notifies the participating
       jurisdiction of HUD’s execution of the HOME Investment Partnership Agreement.




                                               22
24 CFR 92.500(d)(2), The HOME Investment Trust Funds, states:

       For purposes of determining the amount by which the HOME Investment Trust Funds
       will be reduced or recaptured under paragraphs (d)(1)(B) and (C) HUD will consider the
       sum of commitments to CHDOs [community housing development organization),
       commitments, or expenditures, as applicable, from the fiscal year allocation being
       examined from and from subsequent allocations. This sum must be equal to or greater
       than the amount of the fiscal year allocation being examined, or in the case of
       commitments to CHDOs, 15 percent of that fiscal year allocation.

24 CFR 92.552, Notice and Opportunity for Hearing; Sanctions, states:

       a. If HUD finds after reasonable notice and opportunity for hearing that a participating
          jurisdiction has failed to comply with any provision of this part and until HUD is
          satisfied that there is no longer any such failure to comply:

         1. HUD shall reduce the funds in the participating jurisdiction’s HOME Investment
            Trust Fund by the amount of any expenditures that were not in accordance with the
            requirements of this part; and

         2. HUD may do one or more of the following:
             i. Prevent withdrawals from the participating jurisdiction’s HOME Investment
                 Trust Fund for activities affected by the failure to comply;
             ii. Restrict the participating jurisdiction’s activities under this part to activities
                 that conform to one or more model programs which HUD has developed in
                 accordance with section 213 of the Act;
             iii. Remove the participating jurisdiction from participation in allocations or
                  reallocations of funds made available under subpart B or J of this part;
             iv. Require the participating jurisdiction to make matching contributions in
                 amounts required by § 92.218(a) as HOME funds are drawn from the
                 participating jurisdiction’s HOME Investment Trust Fund United States
                 Treasury Account. Provided, however, that HUD may on due notice suspend
                 payments at any time after the issuance of a notice of opportunity for hearing
                 pursuant to paragraph (b)(1) of this section, pending such hearing and a final
                 decision, to the extent HUD determines such action necessary to preclude the
                 further expenditure of funds for activities affected by the failure to comply.




                                                23
